APPENDIX

"A"

APPELLATE COURT DECISION

126445

FILED

NOTICE
This order was filed under Supreme
Court Rule 23 and may not be cited
as precedent by any party except in
the limited circumstances allowed
under Rule 23(e)(1).

September 2, 2020
Carla Bender
4th District Appellate
Court, IL

2020 IL App (4th) 180126-U
NO. 4-18-0126
IN THE APPELLATE COURT
OF ILLINOIS

A

FOURTH DISTRICT
THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,
v.
ANTWONE LAMONT CREATER,
Defendant-Appellant.

)
)
)
)
)
)
)
)

Appeal from the
Circuit Court of
McLean County
No. 17CF970
Honorable
Scott D. Drazewski,
Judge Presiding.

JUSTICE DeARMOND delivered the judgment of the court.
Justices Knecht and Holder White concurred in the judgment.
ORDER

. Hi

12

Held. The appellate court affirmed, finding the trial court did not abuse its discretion
when sentencing defendant within the statutory sentencing range for unlawful
delivery of a controlled substance.
In September 2017, the State charged defendant, Antwone L. Creater, with two

counts of unlawful delivery of a controlled substance. Count I alleged defendant delivered less
than one gram of heroin to a confidential source of the Bloomington Police Department while
within 1000 feet of a school, a Class 1 felony. 720 ILCS 570/407(b)(2) (West 2016). Count 2
alleged defendant knowingly and unlawfully delivered to a confidential source of the
Bloomington Police Department less than one gram of heroin. 720 ILCS 570/401 (d)(i) (West
2016). Count I was dismissed before trial. Count 2 was a Class 2 felony, normally punishable by
three to seven years in the penitentiary, with probation available. In defendant’s case, it carried a
Class X mandatory penitentiary sentence of 6 to 30 years in the Illinois Department of

SUBMITTED - 10654622 - Alicia Corona - 10/2/2020 12:34 PM

i

126445

Corrections (IDOC) based on defendant’s prior criminal record. 730 ILCS 5/5-4.5-95 (W est
2016). In December 2017, a jury found defendant guilty, and the matter was set for sentencing in
January 2018r In December 2017, defense counsel filed a “Motion for Judgment
Notwithstanding the Verdict or for a New Trial.” In January 2018, the trial court denied
defendant’s motion and proceeded to sentencing. The trial court sentenced defendant to 15 y

ears

in IDOC. Defendant filed a timely motion to reconsider sentence, which was denied. Defendant
filed a timely notice of appeal.

P

On appeal, defendant argues the trial court’s sentence was excessive, considering

the legislative intent of the Illinois Controlled Substa nces Act (Act) (720 ILCS 570/100 etseq.
(2016)) and the nature and circumstances of the offense. We disagree and affirm.

14
15

I. BACKGROUND
In September 2017, the State charged defendant by information with two counts

of unlawful delivery of a controlled substance (720 ILCS 570/407(b)(2) (West 2016); 720 ILCS
570/401(d)(i) (West 2016)), Before trial, the State dismissed count I and proceeded solely on
-count-IL- -D efe n d an t-r-a-i s e s-no-issues re garding4 h e~tri airs o w e wii 1 ~outl i ne~ IhlTproceecli rigs bnl v"fb
the extent necessary.

16

Jury trial commenced in December 2017. The State’s first witness, Casey

Wheeler, testified about her role as a paid confidential source with the Bloomington Police
Department and the purchase of heroin from defendant in September 2017. After recounting her
past substance abuse struggles and her criminal record, she relayed the details of her interaction
with defendant to purchase heroin. She testified defendant, via phone calls and text messages,
instructed her to go to several different locations in Bloomington before eventually directing her
to a bus stop, where the transaction took place. Defendant’s cousin, Dorian Parker, arrived at the

-2-

UBMITTED - 10654622 - Alicia Corona - 10/2/2020 12:64 PM

126445

bus stop, and Wheeler and Parker engaged in the drug transaction. She stated she gave Parker
$140 of the prerecorded currency provided by the police and Parker gave her one packet of
heroin and a methadone bottle. She confirmed defendant arrived at the bus stop after the
transaction and she spoke with him. The State introduced text messages between Wheeler and
defendant where defendant expressed concern about police watching him and Wheeler “setting
him up.” The text messages also alluded to defendant sending someone to meet Wheeler.
Regarding her pending unrelated felony, she said she was hoping for leniency, but she indicated
no promises were made. She testified she decided to become a confidential source because she
wanted to stop using drugs and because she “knew that if [defendant] was off the streets I
couldn’t—I couldn’t go there. I couldn’t go to him.”

IV

Dorian Parker testified that in agreement for his testimony, the State would

dismiss two of his non-probationable felony counts arising-from this incident and allow him to
plead to an amended probationable count. However, there was no agreement as to sentence.
Parker said he had been a heroin addict for eight years, and he and his wife came to Bloomington
from Harvey, Illinois, to visit his wife’s cousin (defendant) over the Labor Day weekend. Parker
stated he met up with .defendant on September 5, 2017, to deliver drugs for him. Defendant
instructed him to deliver an empty methadone bottle and two packets of heroin to Wheeler at a
bus stop, and defendant would provide a bag of heroin to Parker as payment in exchange for
agreeing to the delivery. Parker testified after Wheeler provided him with $140, he provided her
with two bags of heroin. After the drug transaction between Parker and Wheeler, defendant
arrived, Parker said, and “not even 30 seconds” later police stopped Parker and defendant as they
were walking away from the bus stop. Parker still had the recorded currency from the drug
transaction in his pocket at the time of his arrest.

-3 -

SUBMITTED - 10654622 - Alicia Corona - 10/2/2020 12:34 PM

126445

18

Parker admitted signing an affidavit while housed in the McLean County jail,

taking sole responsibility for the drug transaction and exonerating defendant. However, he said
the body of the affidavit was not his handwriting, he did not know what it contained, and he
signed it because he “felt pressured and

was still coming off withdrawals from the drugs.”

He said defendant and his brother (who was also incarcerated in the McLean County jail at the
time) pressured him daily to sign it.

19

The State called several police officers involved in the planning and execution of

the controlled drug transaction between Wheeler and defendant. The testimony revealed officers
witnessed Wheeler at the bus stop, when an individual (later identified as Parker) sat next to her
on the bench. Police witnessed a hand-to-hand transaction as Wheeler put money on the bench,
and Parker handed her something while picking up the money. Wheeler and Parker were
engaged in conversation when another individual (later identified as defendant) approached the
bus stop. Parker and defendant began walking away when other officers arrived and arrested
them. Defendant had over $1700 in his pockets along with a cellular phone, which officers
cUnfirmed was thTphone usedTo set up tlTeTlrug transaction with WhccleiTPolice also searched"7
Parker, who had $261 on his person, $140 of which was the “buy money” Wheeler used to
purchase the heroin.

110

Todd Walcott, the lead detective on the case, testified about the benefit of using

confidential sources in driig cases and explained the details involved in controlled-buy
transactions. He described how Wheeler contacted him wanting to work as a confidential source
and purchase heroin from defendant. On the day of the incident, he drove her to various locations
to meet up with defendant and searched her before and after the drug transaction. After the
transaction, he made contact with Wheeler at a nearby restaurant where she informed him the

-4-

SUBMITTED - 10654822 - Alicia Corona - 10/2/202C 12:34 PM

126445

drug transaction was completed and provided him with a bag of heroin. A recorded interview of
defendant was played before the jury where he stated he directed Parker to give Wheeler her
empty methadone bottle but he did not direct him to deliver her any drugs. He confirmed his cell
phone number was the same one Wheeler used to set up the drug transaction but stated she kept
on contacting him to return her methadone bottle. A stipulation was read attesting to the proper
foundational requirements for the drugs and testing by an Illinois State Police forensic scientist
revealed the tested substance was heroin that weighed 0.1 gram. The State rested its case,
defendant elected not to testify, and the defense called no witnesses. The jury found defendant
guilty.

nil

In late December 2017, defendant filed a “Motion for Judgment Notwithstanding

the Verdict or for a New Trial.” Defendant claimed the State failed to prove the elements of the
offense beyond a reasonable doubt and the finding of the jury was against the manifest weight of
the evidence. In January 2018, the trial court denied the motion and proceeded to sentencing. The
State submitted, as a demonstrative exhibit, a list of dates defendant had been in custody since
1997. Defense counsel submitted an acceptance letter defendant received from Midwest
Technical Institute and defendant’s payroll records from his employment in 2017. Defense
counsel called Alexandria Macon, a 17-year-old who stated defendant has been a father figure to
her since she was born, taking her to doctor’s appointments and helping her with school. When
he was released from prison in 2016, she helped him find placement and helped him complete
job applications.

1112

During its argument, the State outlined defendant’s drug-related convictions

starting in 1988. It noted that since 2004, every time defendant was paroled from prison, his
parole was violated for another unlawful delivery of a controlled substance charge. Using the

-5-

SUBMITTED - 10654622 - Alicia Corona - 10/2/2020 12:34 PM

126445

exhibit, the State noted that in the 13 years and 4 months since defendant first went into prison in
2004
“he spent nine years and nine months in DOC, and he spent 11
months in county [jail]. *** [WJithin 13 years since he first
stepped into DOC he’s only been out for less than two [years], and
yet, in this timeframe he was able to pick up six delivery [of
controlled substances] charges.”
The State argued the substance delivered in this case, heroin, was a highly toxic controlled
substance and defendant committed the offense while on parole, both statutory factors a court
may consider; See 720 ILCS 570/411(1) (West 2016); 730 ILCS 5/5-5-3.2(a)(12) (West 2016).
The State argued a 20-year sentence was necessary to deter defendant and others and appropriate
“because the only thing the defendant has learned through his numerous terms in the Department
[of Corrections] is just different ways of trying to evade detection.” It pointed out, through his
six previous controlled substance delivery charges, he violated parole in each instance with a
'similar charge.
If 13

Defense counsel argued the evidence at trial, placing responsibility for the

transaction on Parker and asserting he “was the primary drug deliverer and dealer in this case
and, by his own testimony, was feeding his own drug habit.” Counsel also contended defendant
was battling a drug addiction and anxiety disorder, which helped explain why he has been in and
out of prison. Defense counsel asked the court to impose a 10-year sentence based on the “very
small” quantity of drugs and defendant’s limited involvement in “a crime of opportunity.”
Defendant gave a lengthy allocution professing his innocence, claiming he was used by Wheeler
and Parker and the jury’s guilty verdict was a “grave mistake.”

-6-

SUBMITTE.D - 10354322 - Alicia Corona - 10/2/2020 12:34 PM

126445

1114

Before announcing sentence, the trial court stated it considered:
“the evidence at trial, the gravity of the offense, the Presentence
Investigation Report as amended, the financial impact of
incarceration, the exhibits that were.admitted at the sentencing
hearing today * * * along with the testimony of the witness, the
arguments and recommendations of counsel, the defendant’s
statement in allocution. The Court, having further considered the
factors in aggravation and mitigation, the defendant’s history
character and attitude, the youth of the defendant and his potential
for rehabilitation, all sentencing options, and otherwise being fully
advised in the premises

115

***

55

In addressing defendant’s claims and his statement of allocution, the trial court

noted that even while defendant maintained his innocence, which the court recognized was his
right and would not factor into sentencing, the trier of fact did not see it that way.
116

The trial court expressed reluctance to comment on specific factors in aggravation

based on his concern for possible misconstruction by the appellate court of his comments as
“double enhancement,” and therefore it did not specify such factors, saying instead it
“considered all the factors in aggravation and mitigation and that does, among others, take into
consideration [defendant’s] previous criminal offenses which would be substantial” before
sentencing defendant to 15 years in IDOC.
117

In January 2018, defendant filed a motion to reconsider his sentence, claiming

“[t]hat given all the circumstances, the sentence imposed is excessive.” In February 2018, the
trial court held a hearing on defendant’s motion where defendant’s counsel indicated, “I’m just

-7-

SUBMITTED - 10654622 - Alicia Corona - 10/2/2020 12:34 PM

126445

asking the court to reconsider and weigh the evidence that was present at the prior sentencing
hearing and at trial.” Counsel then provided a brief overview of the trial testimony as well as
evidence presented at the sentencing hearing and contained in the presentence investigation
. report.
If 18

The State reiterated its previous argument concerning defendant’s criminal record

and his failure to successfully complete any term of parole. The trial court again listed the factors
it considered when imposing the sentence originally and denied the motion.
119

This appeal followed.

120
121

II. ANALYSIS
On appeal, defendant argues the trial court’s sentence was excessive considering

the nature and circumstances of the offense and is at odds with the legislative intent and purpose
of the Act. For these reasons, defendant urges us to reduce his sentence “to no more than 10
years in prison.” The State responds the trial court’s 15-year sentence was within the statutory
guidelines and there is no evidence in the record the trial court abused its discretion. We agree
witHThtTState.

122

A trial court enjoys broad discretion in imposing a sentence. People v. Patterson,

217 Ill. 2d 407, 448, 841 N.E.2d 889, 912 (2005).

ii. i

In determining an appropriate sentence, a

defendant’s history, character, and rehabilitative potential, along with the seriousness of the
offense, the need to protect society, and the need for deterrence and punishment, must be equally
weighed.’ ” People v. Hestand, 362 Ill. App. 3d 272, 281, 838 N.E.2d 318, 326 (2005) (quoting
People v. Hernandez, 319 Ill. App. 3d 520, 529, 745 N.E.2d 673, 681 (2001)). When mitigating
factors are presented to a court, the reviewing court should presume that the trial court
considered them. People v. Pippen, 324 Ill. App. 3d 649, 653, 756 N.E.2d 474, 478 (2001).

-8-

SUBMITTED - 10654622 - Alicia Corona - 10/2/2020 12:34 PM

126445

Likewise, when a sentence falls within the statutory range of sentences possible for a particular
offense, it is presumed reasonable. People v. Moore, 41 Ill. App. 3d 3, 4, 353 N.E.2d 191, 192
(1976).

1123

“Because the trial court is in a better position to observe the witnesses and

consider the relevant factors, its sentencing determination is entitled to great deference.” People
v. Kenton, 377 Ill. App. 3d 239, 245, 879 N.E.2d 402, 407 (2007).

u (

Absent an abuse of

discretion by the trial court, a sentence may not be altered upon review.’ ” People v. Hensley,
354 Ill. App. 3d 224, 234, 819 N.E.2d 1274, 1284 (2004) (quoting People v. Kennedy, 336 Ill.
App. 3d 425, 433, 782 N.E.2d 864, 871 (2002)). An abuse of discretion will be found “where the
sentence is ‘greatly at variance with the spirit and purpose of the law, or manifestly
, disproportionate to the nature of the offense.

5

55

People v. Alexander, 239 Ill. 2d 205, 212, 940

N.E.2d 1062, 1066 (2010) (quoting People v. Stacey, 193 Ill. 2d 203, 210, 737 N.E.2d 626, 629
(2000)). Alternatively, an abuse of discretion will not be found unless the court’s sentencing
decision is “arbitrary, fanciful, unreasonable, or where no reasonable person would take the view '
adopted by the trial court.” People v. Etherton, 2017 IL App (5th) 140427, If 26, 82 N.E.3d 693.

1f24

In this case, defendant was convicted of unlawful delivery of a controlled

substance, a Class 2 felony, but subject to Class X sentencing (6 to 30 years in IDOC) due to
defendant’s prior criminal record. 730 ILCS 5/5-4.5-95 (West 2016). As the trial court’s 15-year
sentence fell within the relevant sentencing range, it is presumed to be proper, and we will not
disturb the sentence absent an abuse of discretion. People v. Knox, 2014 IL App (1st) 120349,
If 46, 19 N.E.3d 1070.

1125

Defendant’s argument, in part, posits he was indirectly involved in the sale of a

small amount of heroin and the sentence of 15 years is excessive because the offense itself was

-9-

SUBMITTED - 10654622 - Alicia Corona - 10/2/2020 12:34 PM

126445

not serious enough to warrant such a sentence. If we were to consider that in isolation, defendant
may have a point. Unfortunately, when exercising its broad discretion at sentencing, the trial
court must base a defendant’s sentence on other relevant factors besides The instant offense itself.
As we have previously stated, “[a]n appropriate sentence must be based upon the particular
circumstances of an individual case, including (1) the defendant’s history, character, and
rehabilitative potential; (2) the seriousness of the offense; (3) the need to protect society; and
(4) the need for deterrence and punishment.” People v. Garcia, 2018 IL App (4th) 170339, If 37.
99 N.E.3d 571. All of these factors “ ‘must be equally weighed.

5

55

Hestand, 362 Ill. App. 3d at

281 (quoting Hernandez, 319 III. App. 3d at 529). Therefore, it is incumbent upon the trial court
to review all appropriate factors and weigh them accordingly before imposing sentence.
U 26

Although the trial court did not make specific findings of what it considered

aggravating or mitigating, it was not required to do so. See People v. McGuire, 2017 IL App
(4th) 150695, If 38, 92 N.E.3d 494 (“When imposing a sentence, the trial court must consider
statutory factors in mitigation and aggravation, but the court need not recite and assign a value to
eachTactor irhas considered.”')rBesWes considering the seriousness ofthe offense, the trial court
stated it considered factors in “aggravation and mitigation, the defendant’s history, character and
attitude, the youth of the defendant and his potential for rehabilitation, [and] all sentencing
options.” It is certainly appropriate for the trial court to consider the seriousness of the offense
before imposing sentence, but defendant is asking us to reverse a sentence within the statutory
guidelines by arguing a lack of seriousness should be given more weight than any of the other
factors previously considered by the trial court. We decline to do so.
K 27

Defendant folds into his excessive-sentence argument a claim the trial court’s

15-year sentence is at odds with the legislative intent and purpose behind the Act. As defendant

- 10-

SUSMITTED - 10354622 - Alicia Corona - 10/2/2020 12:34 PM

126445

indicates, the legislative intent of the Act provides “a wide latitude in sentencing discretion, to
enable the sentencing court to order penalties in each case which are appropriate for the purposes
of this Act.” 720 ILCS 570/100 (West 2016). Defendant lists nine sentencing factors under the
Act’s sentencing statute, claiming defendant only qualifies under one of them (that heroin is a
highly toxic controlled substance.) For this reason, defendant claims the 15-year sentence was
excessive. Defendant appears to ignore the fact that section 411 of the Act provides for any one
of these factors (they are listed in the disjunctive) to be considered as warranting “the most
severe penalties.” 720 ILCS 570/411 (West 2016). Further, defendant confuses the sentencing
structure of the Act with defendant’s circumstances. True, he was subject to a sentence under the
Act; however, because of his extensive criminal history, his sentence was to be determined
pursuant to the habitual criminal statute (730 ILCS 5/5-4.5-95(b) (West 2016)) which, simply by
operation of the number, severity, and frequency of his previous convictions, warranted
enhancement from a probationable 3 to 7 years for a Class 2 felony, to mandatory Class X
sentencing, now with a range of a non-probationable 6 to 30 years. This is due to the fact the
conviction in this case was defendant’s seventh delivery of controlled substances conviction
between 2003 and 2018.

1128

Contrary to defendant’s claim that a 15-year sentence is at odds with the Act’s

legislative intent, the Act states in part its purpose is to “penalize most heavily the illicit
traffickers or profiteers of controlled substances, who propagate and perpetuate the abuse of such
substances with reckless disregard for its consumptive consequences upon every element of
society.” 720 ILCS 570/100 (West 2016). Defendant is not an occasional petty distributer of
controlled substances—it is his profession. The Act’s intent was designed to curb defendant, and
individuals similarly situated, from delivering dangerous substances that damage “the peace and

- 11 -

SUBMITTED - 10654622 - Alicia Corona - 10/2/2020 12:34 PM

126445

welfare of the citizens of Illinois.” 720 ILCS 570/411 (West 2016). The evidence produced at
trial and sentencing also supports the conclusion the sentence was necessary to deter others,
including defendant, from committing the same crime in the future. 730 ILCS 5/5-5-3.2(7) (West
2016). Indeed, defendant was on mandatory supervised release (MSR) at the time he committed
this felony and appears to have been on MSR or parole each time he reoffended. See 730 ILCS
5/5-5-3.2(12) (West 2016). The court mentioned defendant’s extensive criminal history—a
statutory aggravating factor the court can consider at sentencing. 730 ILCS 5/S-5-3.2 (3) (West
2016).
29

Defendant’s criminal history dates back to the late 1980s and covers four

counties. He has 7 prior felonies, 6 prior misdemeanors, and 21 related traffic offenses. At the
time he committed this offense, he was out on parole after serving a 10-year sentence for
committing the same offense—unlawful delivery of a controlled substance. Before committing
this offense, he had-approximately 10 convictions related to drug offenses, 6 of which involved
delivery of controlled substances. He has received a total of six separate sentences to IDOC and
on a parole violation every ttmerAsAhe State pointed out~at senTencingrduTfng
the 13 years after his first sentence to IDOC, defendant had been out of prison for less than 2
years. Within that two-year period, he was convicted of six felonies involving unlawful delivery
of controlled substances.
|30

Defendant has failed to show how the trial court erred by imposing a sentence in

the mid-range of what was statutorily permissible and only five years more than defendant’s own
recommendation while at the same time five years less than the recommendation of the State.
The record reveals the trial court considered all appropriate evidence before imposing a sentence,
all factors in aggravation and mitigation, and “defendant’s history, character and attitude, the

- 12-

SUBMITTED - 10S54322 - Alicia Corona - 10/2/2020 12:34 PM

*1

126445

youth of the defendant and his potential for rehabilitation.” Defendant’s 15-year sentence
amounted to half of the maximum possible for committing the same offense for the seventh time.
We find this sentence was not greatly at variance with the spirit of the law or manifestly
disproportionate to the nature of defendant’s crimes in light of both aggravating and mitigating
factors. Accordingly, we conclude defendant’s sentence was not excessive and the trial court did
not abuse its discretion.
131

III. CONCLUSION

132

For the reasons stated, we affirm the trial court’s judgment.

133

Affirmed.

- 13 -

UBMITTED - 10654622 - Alicia Corona - 10/2/2020 12:34 PM

126445
IN THE'
SUPREME COURT OF ILLINOIS
PEOPLE OF THE STATE OF
ILLINOIS,

)
)

).
)

Respondent-Appellee,
-vs-

)
)
)

ANTWONE LAMONT CREATER,

)

Petitioner-Appellant.

)
)
)

Petition for Leave to Appeal from
the Appellate Court of Illinois,
Fourth Judicial District, No. 4-180126
There heard on Appeal from the
Circuit Court of McLean County,
Illinois, No. 17-CF-970.
Honorable
Scott D. Drazewski,
Judge Presiding.

NOTICE AND PROOF OF SERVICE
Mr. Kwame Raoul, Attorney General, 100 W. Randolph St., 12th Floor, Chicago,
IL 60601, eserve.criminalappeals@atg.state.il.us;
Mr. David J. Robinson, Deputy Director, State's Attorney Appellate Prosecutor,
725 South Second Street, Springfield, IL 62704, 4thdistrict@ilsaap.org;
Don Knapp, McLean County State’s Attorney, 104 W. Front St., Room 605,
Bloomington, IL 61701-2400, stateattny@mcleancountyil.gov;
Mr. Antwone Lamont Creater, A/K/A Antwoine Lamont Creator, Register No.
R32499, Big Muddy River Correctional Center, 251 N. Illinois Highway 37, Ina,
IL 62846
Under penalties as provided by law pursuant to Section 1-109 of the Code of Civil
Procedure, the undersigned certifies that the statements set forth in this instrument
are true and correct. On October 2, 2020, the Petition for Leave to Appeal was filed
with the Clerk of the Supreme Court of Illinois using the court's electronic filing
system in the above-entitled cause. On that same date, we electronically served the
Attorney General of Illinois and opposing counsel by transmitting a copy from an
agency email address to the email addresses of the persons named above. One copy is
being mailed to the petitioner in an envelope deposited in a U.S. mail box in Chicago,
Illinois, with proper postage prepaid. Additionally, upon its acceptance by the court's
electronic filing system, the undersigned will send 13 copies of the Petition for Leave
to Appeal to the Clerk of the above Court.
E-FILED
10/2/2020 12:34 PM
Carolyn Taft Grosboll
SUPREME COURT CLERK

SUBMITTED - 10654622 - Alicia Corona - 10/2/2020 12:34 PM

/s/Alicia Corona
LEGAL SECRETARY
Office of the State Appellate Defender
203 N. LaSalle St., 24th Floor
Chicago, IL 60601
(312) 814-5472
Service via email is accepted at
lstdistrict.eserve@osad.state.il.us

, • "V. ‘kv;

A-

APPENDIX

"B"

DENIAL BY ILLINOIS SUPREME COURT

! ’

i

i

Prepared For:
County:
Trial Court No:
Appeal No:
Decision Date:

Antwone Lamont Creater
McLean
17-CF-970
4-18-0126
09/02/2020

Illinois Supreme Court No. 126445
Date PLA Denied:
11/18/2020
I. OTHER REMEDIES: FORMS AVAILABLE UPON REQUEST
What to File
Petition for Writ of Certiorari

■

- -

-

Where to File:

Clerk of the United States Supreme Court, Supreme
Court Building, Washington, D.C. 20543

When to File:

within 90 days of the denial of your petition for leave
to appeal

Petition for Post-Conviction Relief
t

Page 1, Form Available Upon Request

■. Where to File:

I

Serve Copy To:

Petition for Habeas Corpus
Where to File:

Petition for Executive Clemency
Where to File:

Page 1-3, Form Available Upon Request
Donald Everhart, Clerk of the Circuit Court,
McLean County Clerk, 104 W. Front Street, Room
605, Bloomington, IL 61701
Don Knapp, McLean County State's Attorney, 104
W. Front St., Room 605, Bloomington, IL 6170L
2400
Pages 3-4, Form Available Upon Request
Clerk of the US District Court, Central District of
Illinois, Peoria Division, 211 19th Street, Peoria, IL
61201
Page 4, Form Available Upon Request
Prisoner Review Board, 319 E. Madison, Suite A
Springfield, IL 62701

SUPREME COURT OF ILLINOIS
WEDNESDAY, NOVEMBER 18, 2020
THE FOLLOWING CASES ON THE LEAVE TO APPEAL DOCKET WERE DISPOSED
OF AS INDICATED:

125191

People State of Illinois, petitioner, v. James A. Pacheco, respondent.
Leave to appeal, Appellate Court, Third District. 3-15-0880
Petition for Leave to Appeal Denied.
In the exercise of this Court’s supervisory authority, the
Appellate Court, Third District, is directed to vacate its judgment
in People v. Pacheco, case No. 3-15-0880 (07/23/19). The
appellate court is directed to consider the effect of this Court’s
opinion in People v. Hollahan, 2020 IL 125091, on the issue of
whether the trial court erred in replaying video and audio
recordings in the courtroom in the presence of the parties and
trial judge rather than in the jury room during deliberations, and
determine if a different result is warranted.

125398

People State of Illinois, petitioner, v. Leamon R. Cavitt Jr., respondent.
Leave to appeal, Appellate Court, Second District. 2-17-0149
Petition for Leave to Appeal Denied.
In the exercise of this Court’s supervisory authority, the
Appellate Court, Second District, is directed to vacate its
judgment in People v. Cavitt. case No. 2-17-0149
(09/30/19). The appellate court is directed to consider the effect
of this Court’s opinion in People v. Hollahan. 2020 IL 125091,
on the issue of whether the trial court committed reversible error
in its response to the jury’s request to view the surveillance
video, and determine if a different result is warranted.

Michael J. Burke, J. took no part.

125522

People State of Illinois, respondent, v. David E. Jones, petitioner. Leave
to appeal, Appellate Court, Third District. 3-16-0268
Petition for Leave to Appeal Denied.

126444

The Board of Education of Richland School District No. 88A, etc.,
respondent, v. The City of Crest Hill, etc., petitioner. Leave to appeal,
Appellate Court, Third District. 3-19-0225
Petition for Leave to Appeal Allowed.

126445

People State of Illinois, respondent, v. Antwone Lamont Creater,
petitioner. Leave to appeal, Appellate Court, Fourth District. 4-18-0126
Petition for Leave to Appeal Denied.

126446

Jarret Sproull, Indv., etc., respondent, v. State Farm Fire and Casualty
Company, petitioner. Leave to appeal, Appellate Court, Fifth District. 518-0577
Petition for Leave to Appeal Allowed.
Theis, J. took no part.

126447

People State of Illinois, respondent, v. Christine Elizabeth Roush,
petitioner. Leave to appeal, Appellate Court, Fourth District. 4-18-0232
Petition for Leave to Appeal Denied.

126448

People State of Illinois, respondent, v. Darius J. Brown, petitioner.
Leave to appeal, Appellate Court, Fourth District. 4-18-0453
Petition for Leave to Appeal Denied.

126449

People State of Illinois, respondent, v. Michael Smith, petitioner. Leave
to appeal, Appellate Court, First District. 1-17-2392
Petition for Leave to Appeal Denied.

126451

Andrew Prescott, petitioner, v. Flanagan State Bank, etc., respondent.
Leave to appeal, Appellate Court, Fourth District. 4-19-0648
Petition for Leave to Appeal Denied.

126452

People State of Illinois, respondent, v. James D. Maguire, petitioner.
Leave to appeal, Appellate Court, Fourth District. 4-18-0594
Petition for Leave to Appeal Denied.

126453

People State of Illinois, respondent, v. James D. Jones, petitioner.
Leave to appeal, Appellate Court, Fourth District. 4-19-0909
Petition for Leave to Appeal Denied.

